Semiannual Report To
The Congress




April 1, 2005 – September 30, 2005




Office of
Inspector General
Department of the Treasury
                   HIGHLIGHTS IN BRIEF
During this semiannual reporting period, our Office of Audit issued 18 audit
and evaluation reports which identified, in total, approximately $2.8 million
in monetary benefits. Work by our Office of Investigations resulted in
9 convictions by plea agreement, 1 conviction by trial, 18 indictments,
2 informations, 6 State and local charges, and 32 referrals accepted for
prosecution. Investigative activities also resulted in over $116,000 in court
ordered restitution and investigative recoveries as well as 17 personnel
actions. Some of the significant results for this period are described below:

•   Our audit report on the Financial Crimes Enforcement Network (FinCEN)
    revealed that it faces several major challenges to better ensure money
    services businesses (MSB) register with FinCEN pursuant to the Money
    Laundering Suppression Act of 1994. We found, among other things:
    indicators that many MSBs required to register have not done so; the
    Internal Revenue Service -- FinCEN’s primary vehicle for examining MSBs --
    may not have sufficient resources to conduct timely examinations of MSBs
    for compliance with the Bank Secrecy Act; and, as of our audit period,
    there had been no enforcement action taken against non-compliant MSBs.
    FinCEN management has already taken some actions and planned others to
    enhance the MSB registration program.

•   We issued an interim audit report from our continuing audit oversight of
    the Treasury Building and Annex Repair and Restoration (TBARR)
    program providing the results of an independent inspection of the Main
    Treasury building renovation for building code compliance. An
    engineering and construction consultant under our supervision noted
    that the TBARR renovation contractors exerted extraordinary effort in
    bringing the project to its current stage. However, the consultant found
    some violations and other deficiencies in certain areas. These matters
    are being addressed by the Department.

•   As a result of our joint investigation with the Department of Housing
    and Urban Development OIG in June 2005, an individual was found
    guilty in U.S. District Court on 13 counts of issuing Fictitious
    Government Financial Instruments to purchase approximately $1.6
    million in real estate from low income families. In September 2005, the
    individual was sentenced to 15 months incarceration, 36 months of
    supervised probation, and ordered to pay a special assessment of
    $1,300.

•   An OIG investigation disclosed that 12 employees within a section of
    the Bureau of Engraving and Printing (BEP) viewed, sent, and saved
    sexually explicit images on government computers. It was also
    determined that managers within the section knew of and participated in
    these activities. BEP recommended 1 to 14 days suspension without
    pay for 9 employees and formal counseling for 3 others.

Finally, we are pleased to report that the work of our office during fiscal
year 2005 was recognized with 5 awards for excellence by the President’s
Council on Integrity and Efficiency at an October 2005 ceremony.
A MESSAGE FROM THE INSPECTOR GENERAL

I am pleased to present the Department of the Treasury (Treasury), Office of
Inspector General (OIG) Semiannual Report summarizing activities for the
6-month period from April 1, 2005 through September 30, 2005.

Having been sworn in on April 5, 2005, the activity described in this
Semiannual Report represents my first six months of service as the Treasury
Inspector General. During this time, I have become acquainted with my staff
and I have been impressed with their dedication and professionalism.

I made some organizational changes with the intent of creating more
efficiency in carrying out our mandated duties. Most significantly, I closed
our audit office in San Francisco, California as most of its work was based in
Washington, D.C. Those positions were transferred to establish a banking
unit in Washington, D.C. whose primary mission will be to focus on
traditional banking issues such as safety and soundness, Bank Secrecy Act
compliance, and consumer protection.

In the Office of Investigations, I have increased our level of supervision by
adding a third special agent-in-charge and two assistant special agents-in-
charge. I believe this additional supervision will allow us to handle our
investigations in a more efficient manner. I have also tasked my Assistant
Inspector General for Investigations to develop and direct more proactive
investigative activities.

I am pleased to report that during this reporting period a number of senior
management positions within Treasury have been filled. Most importantly,
from the Department’s operational standpoint, are the positions of Deputy
Secretary and the Assistant Secretary for Management and Chief Financial
Officer. My staff and I look forward to working closely with these
individuals, along with Secretary Snow, who has been very supportive of the
OIG, as we seek to identify and prevent potential vulnerabilities and fraud in
the Department’s programs, promote effective program management, ensure
sound financial management, and improve information technology.




                                                  Harold Damelin
                                                  Inspector General
This Page Intentionally Left Blank
                                      T ABLE O F C ONTENTS



Highlights in Brief

A Message From The Inspector General

Overview of the OIG and Treasury ...................................................................              1

        OIG Values ..........................................................................................     2
        About Treasury ....................................................................................       2

Significant Audits and Evaluations ...................................................................            5

        Financial Management ...........................................................................          5
        Attestation Engagements .......................................................................           7
        Information Technology .........................................................................          8
        Programs and Operations .......................................................................          10

Significant Investigations ................................................................................      14

Other OIG Accomplishments and Activities .......................................................                 19

Statistical Summary .......................................................................................      22

        Summary of OIG Activity.......................................................................           22
        Significant Unimplemented Recommendations ..........................................                     24
        Summary of Instances Where Information Was Refused ............................                          26
        Listing of Audit and Evaluation Reports Issued .........................................                 27
        Audit Reports Issued with Questioned Costs ............................................                  28
        Audit Reports Issued with Recommendations That
           Funds be Put to Better Use ................................................................           29
        Previously Issued Audit Reports Pending Management Decisions ................                            29
        Significant Revised Management Decisions ..............................................                  29
        Significant Disagreed Management Decisions ...........................................                   29

References to the Inspector General Act as Amended ........................................                      30

Acronyms .....................................................................................................   31
This Page Intentionally Left Blank
               O VERVIEW OF THE OIG AND THE T REASURY


           he Department of the Treasury’s (Treasury) Office of Inspector General (OIG) was

   T       established pursuant to the 1988 amendment to the Inspector General Act of 1978,
           5 United States Code (USC) Appendix 3. The OIG is headed by an Inspector
           General (IG) who is appointed by the President of the United States, with the advice
and consent of the United States Senate. Serving with the Inspector General in the immediate
office is a Deputy Inspector General. The OIG performs independent and objective reviews of
Treasury programs and operations, except for the Internal Revenue Service (IRS), and keeps
the Secretary of the Treasury and Congress fully informed of problems, deficiencies, and the
need for corrective action. The Treasury Inspector General for Tax Administration (TIGTA)
performs audit and investigative services related to the IRS.

The OIG is organized into four divisions: (1) Office of Audit, (2) Office of Investigations,
(3) Office of Counsel, and (4) Office of Management.

       The Office of Audit (OA) performs audits and evaluations. The Assistant Inspector
       General for Audit has two deputies. One deputy is primarily responsible for
       performance audits while the other deputy is primarily responsible for financial
       management and information technology audits. OA headquarters is located in
       Washington, DC, with a field office in Boston. The Western Field Audit Office located
       in San Francisco, California, was closed on September 16, 2005. On-going audit work
       from that office will be transferred to headquarters.

       The Office of Investigations (OI) performs investigations and conducts proactive
       initiatives that are aimed toward the detection and prevention of fraud, waste, and
       abuse in Treasury programs and operations. OI also manages the Treasury OIG Hotline
       System to facilitate the reporting of allegations involving the programs and activities
       under the auspices of the Department. The Assistant Inspector General for
       Investigations is responsible for the supervision and conduct of all investigations
       relating to the Department’s programs and operations and performs integrity oversight
       reviews within select Treasury bureaus. OI headquarters and criminal investigative field
       staff are co-located in Washington, DC.

       The Office of the Counsel to the Inspector General (1) processes all Freedom of
       Information Act/Privacy Act requests and administrative appeals; (2) processes all
       discovery requests; (3) represents the OIG in administrative Equal Employment
       Opportunity and Merit Systems Protection Board proceedings; (4) conducts ethics
       training, provides ethics advice, and ensures compliance with financial disclosure
       requirements; (5) reviews proposed legislation and regulations; (6) reviews and issues
       IG subpoenas; (7) reviews and responds to all Giglio requests for information about
       Treasury personnel who may testify in trials; and (8) provides advice in procurement,
       personnel and other management matters, and in pending audits and investigations.

       The Office of Management provides a range of services designed to maintain the OIG
       administrative infrastructure. These services include: asset management; budget
       formulation and execution; financial management; information technology; and


             Treasury Office of Inspector General Semiannual Report – September 2005            1
             O VERVIEW OF THE OIG AND THE T REASURY

     Office-wide policy preparation, planning, emergency preparedness, and reporting for the
     OIG. The Assistant Inspector General for Management is in charge of these functions.

     As of September 30, 2005, the OIG had 108 full-time staff onboard. The OIG’s fiscal
     year 2005 appropriation was $16.368 million.

OIG Values
     The values of the OIG include producing high quality products that are accurate, timely,
     relevant, and responsive to the needs of decision-makers. We strive to ensure
     integrity, independence, objectivity, proficiency, and due care in performing our work.
     The OIG promotes teamwork and open communication among its organizational
     components. The OIG encourages and rewards its workforce for innovation, creativity,
     dedication, and productivity. Finally, the OIG fosters an environment of respect, equal
     opportunity, and diversity among its workforce.

About Treasury
     The mission of Treasury is to promote the conditions for prosperity and stability in the
     United States and encourage prosperity and stability in the rest of the world.
     Organized into bureaus and offices, the Treasury encompasses a wide range of
     programmatic and operational activities. Currently, Treasury is comprised of
     approximately 113,000 Full-time Equivalent (FTE) staff. Of this workforce, the IRS has
     approximately 97,500 FTE staff and the other Treasury bureaus and offices have
     approximately 15,500 FTE staff.

Treasury Bureaus

     Alcohol and Tobacco Tax and Trade Bureau (TTB) collects alcohol, tobacco, firearms
     and ammunition excise taxes (totaling approximately $15 billion annually); ensures that
     these products are labeled, advertised and marketed in accordance with the law; and
     administers laws and regulations in a manner that protects the consumer and the
     revenue.

     Bureau of Engraving and Printing (BEP) designs and manufactures U.S. currency,
     securities, and other official certificates and awards.

     Bureau of the Public Debt (BPD) borrows the money needed to operate the Federal
     Government. It administers the public debt by issuing and servicing U.S. Treasury
     marketable, savings, and special securities.

     Financial Crimes Enforcement Network (FinCEN) supports law enforcement
     investigative efforts and fosters interagency and global cooperation against domestic
     and international financial crimes. It also provides U.S. policy makers with strategic
     analyses of domestic and worldwide trends and patterns.


2          Treasury Office of Inspector General Semiannual Report – September 2005
              O VERVIEW OF THE OIG AND THE T REASURY


      Financial Management Service (FMS) receives and disburses all public monies,
      maintains government accounts, and prepares daily and monthly reports on the status
      of U.S. Government finances.

      Internal Revenue Service (IRS) is the nation's tax collection agency and administers the
      Internal Revenue Code.

      U.S. Mint (Mint) designs and manufactures domestic, bullion, and foreign coins, as well
      as commemorative medals and other numismatic items. The Mint also distributes U.S.
      coins to the Federal Reserve banks and maintains physical custody and protection of
      our nation's gold and silver assets.

      Office of the Comptroller of the Currency (OCC) charters, regulates, and supervises
      national banks to ensure a safe, sound, and competitive banking system that supports
      the citizens, communities, and economy of the United States.

      Office of Thrift Supervision (OTS) regulates all federal and many state-chartered thrift
      institutions, which include savings banks and savings and loan associations.

Treasury Offices

      Departmental Offices (DO) formulates policy and manages Treasury operations.

      Office of Terrorism and Financial Intelligence (TFI) marshals the department's
      intelligence and enforcement functions with the twin aims of safeguarding the financial
      system against illicit use and combating rogue nations, terrorist facilitators, money
      launderers, drug kingpins, and other national security threats.

      •   TFI is headed by an Under Secretary and includes two major components: the
          Office of Terrorist Financing and Financial Crime (TFFC), responsible for TFI's
          enforcement functions, and the Office of Intelligence and Analysis (OIA),
          responsible for TFI's intelligence functions. An Assistant Secretary oversees each
          of these offices. TFFC is responsible for integrating FinCEN, the Office of Foreign
          Assets Control (OFAC), and the Treasury Executive Office of Asset Forfeiture
          (TEOAF). TFFC also works in close partnership with IRS Criminal Investigation
          (IRS-CI) to enforce laws against terrorist financing and money laundering, including
          the Bank Secrecy Act. OIA is responsible for the receipt, analysis, collation, and
          dissemination of intelligence and counterintelligence information related to the
          operations and responsibilities of the entire Department, including all components
          and bureaus of the Department.

      •   OFAC administers and enforces economic and trade sanctions based on U.S. foreign
          policy and national security goals against targeted foreign countries, terrorists,
          international narcotics traffickers, and those engaged in activities related to the
          proliferation of weapons of mass destruction.


            Treasury Office of Inspector General Semiannual Report – September 2005              3
            O VERVIEW OF THE OIG AND THE T REASURY


    •   TEOAF administers the Treasury Forfeiture Fund (TFF). The TFF is the receipt
        account for the deposit of non-tax forfeitures made by IRS-CI and the Department
        of Homeland Security, including U.S. Immigration and Customs Enforcement, U.S.
        Customs and Border Protection, U.S. Secret Service, and U.S. Coast Guard.
        Funding to the participating law enforcement agencies is provided through the TFF
        to enhance their capabilities to conduct successful investigations and forfeitures.
        The mission of the TFF is to affirmatively influence the consistent and strategic use
        of asset forfeiture by participating agencies to disrupt and dismantle criminal
        enterprises.

    Office of International Affairs advises and assists in the formulation and execution of
    U.S. international economic and financial policy, including the development of policies
    with respect to international financial, economic, monetary, trade, investment, bilateral
    aid, environment, debt, development, and energy programs, including U.S. participation
    in international financial institutions.

    Exchange Stabilization Fund (ESF) is used to purchase or sell foreign currencies, to hold
    U.S. foreign exchange and Special Drawing Rights assets, and to provide financing to
    foreign governments. All operations of the ESF require the explicit authorization of the
    Secretary of the Treasury.

    Community Development Financial Institutions Fund (CDFI Fund) expands the
    availability of credit, investment capital, and financial services in distressed urban and
    rural communities.

    Federal Financing Bank (FFB) provides federal and federally assisted borrowing,
    primarily to finance direct agency activities such as construction of Federal buildings by
    the General Services Administration and meeting the financing requirements of the U.S.
    Postal Service.

    Office of D.C. Pensions makes federal benefit payments associated with the District of
    Columbia (DC) Retirement Programs for police officers, firefighters, teachers, and
    judges.

    Air Transportation Stabilization Board (ATSB) issues federal credit instruments (loan
    guarantees) to assist air carriers that suffered losses as a result of the terrorist attacks
    on the United States that occurred on September 11, 2001.




4         Treasury Office of Inspector General Semiannual Report – September 2005
                          S IGNIFICANT A UDITS AND E VALUATIONS

FINANCIAL MANAGEMENT

Financial Audits

The Chief Financial Officers (CFO) Act, as amended by the Government Management
Reform Act of 1994 (GMRA), requires annual financial statement audits of Treasury and
Office of Management and Budget (OMB)-designated entities. The following table shows
audit results for fiscal years 2004 and 2003.


                                   Treasury Audited Financial Statements and Related Audits

                                               Fiscal Year 2004 Audit Results                    Fiscal Year 2003 Audit Results
                                                                            Other                                      Other Reportable
                                                          Material                                      Material
Entity                                      Opinion                       Reportable    Opinion                           Conditions
                                                          Weakness                                      Weakness
                                                                          Conditions
GMRA/CFO Requirements
  Treasury Department                          UQ             1               1             UQ              2                  1
  IRS (A)                                      UQ             4               2             UQ              4                  2
Other Required Audits
  BEP                                          UQ             0               0             UQ              0                  0

  CDFI Fund                                    UQ             0               0             UQ              0                  0

  Office of DC Pensions                        UQ             0               0             UQ              0                  0

                                               UQ             0               0             UQ              0                  0
  ESF

  FFB                                          UQ             1               0             UQ              0                  0

 OCC                                           UQ             0               1             UQ              0                  2
 OTS                                           UQ             0               0             UQ              0                  0
 TFF                                           UQ             0               1             UQ              0                  1
 Mint
    Financial Statements                       UQ             0               0             UQ              0                  0
    Custodial Gold and
                                               UQ             0               0             UQ              0                  0
       Silver Reserves
Material to Treasury Department Financial Statements
 BPD
    Schedule of Federal Debt (A)               UQ             0               0             UQ              0                  0
    Government Trust Funds                     UQ             0               1             UQ              0                  0
    Schedule of Loans
                                               (B)            0               0             UQ              0                  0
      Receivable
  FMS
    Treasury Managed Accounts                  UQ             0               0             UQ              0                  0
     Operating Cash of the Federal
                                                UQ             0               1              UQ               1                  0
        Government
  TTB Schedule of Custodial
                                                (B)            0               0              UQ               0                  3
    Activities
  International Assistance
                                                (C)            0               0              (C)              0                  1
    Programs
UQ Unqualified Opinion
(A) Audited by the U.S. Government Accountability Office.
(B) A separate schedule was not prepared and audited for fiscal year 2004. Related accounts were audited, and any required follow-up
      on prior year internal control weaknesses was performed as part of the audit of the Treasury’s consolidated financial statements.
(C) These accounts were audited as part of the Department’s consolidated financial statement audits. No separate audit reports were
      issued. These accounts were considered materially accurate.




                 Treasury Office of Inspector General Semiannual Report – September 2005                                                  5
                      S IGNIFICANT A UDITS AND E VALUATIONS

Audits of the fiscal year 2005 financial statements or schedules of the Department and
component reporting entities were in progress at the end of this Semiannual reporting
period.

The following instances of Federal Financial Management Improvement Act (FFMIA)
non-compliance were reported in connection with the fiscal year 2004 audits. The current
status of these FFMIA non-compliances, including progress in implementing remediation
plans, will be evaluated as part of our audit of Treasury’s fiscal year 2005 financial
statements.

                                                                       Fiscal Year First
Entity                           Condition                            Reported for FFMIA      Type of Non-Compliance
                                                                           Purposes
         The general ledger does not conform to the U.S.
 IRS                                                                        1997              Standard General Ledger
         Government Standard General Ledger.
         IRS lacks an effective audit trail from its general ledger
                                                                                            Federal Financial Management
 IRS     back to subsidiary detailed records and transaction                1997
                                                                                           Systems Requirements (FFMSR)
         source documents.
         Material weaknesses related to controls over unpaid tax                            FFMSR, Federal Accounting
 IRS     assessments, tax revenue and refunds, and computer                 1997                   Standards
         security.
         IRS cannot rely solely on information from its general
 IRS                                                                        1997                      FFMSR
         ledger to prepare financial statements.

 IRS     IRS lacks a subsidiary ledger for unpaid assessments.              1997                      FFMSR


The results of financial audits issued by our Office during this period that were performed
in support of our audit of Treasury’s 2004 consolidated financial statements are
summarized as follows:

Audit of the Federal Financing Bank’s Fiscal Years 2004 and 2003 Financial
Statements

An Independent Public Accountant (IPA), working under OIG supervision, issued an
unqualified opinion on FFB’s Fiscal Years 2004 and 2003 financial statements. The audit
identified one material weakness related to internal controls over the selecting, monitoring,
and applying generally accepted accounting principles related to certain non-routine
transactions. No instances of reportable non-compliance with laws and regulations were
identified. (OIG-05-045)

Management Letter for Fiscal Year 2004 Audit of the Financial Management
Service’s Schedules of Non-Entity Government-Wide Cash

An IPA, working under OIG supervision, issued a management letter related to the audit of
FMS’s Fiscal Year 2004 Schedule of Non-Entity Government-Wide Cash (OIG-05-008).
The management letter contained the specific findings and recommendations for the
reportable condition related to the ineffectiveness of computer controls. Due to the



6               Treasury Office of Inspector General Semiannual Report – September 2005
                S IGNIFICANT A UDITS AND E VALUATIONS

sensitive nature of the information contained in the management letter, it has been
designated for Limited Official Use (LOU). (OIG-05-036)

Management Letter For Fiscal Year 2004 Audit of the Financial Management
Service’s Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue

An IPA, working under OIG supervision, issued a management letter related to the Audit of
the FMS’s Fiscal Year 2004 Schedules of Non-Entity Assets, Non-Entity Costs and
Custodial Revenue (OIG-05-009). The management letter contained internal control
weaknesses related to electronic data processing that were not required to be included in
the audit report. Due to the sensitive nature of the information contained in the
management letter, it has been designated for LOU. (OIG-05-037)

Attestation Engagements

The following engagements were completed in support of our audit of Treasury’s fiscal
year 2005 consolidated financial statements. These engagements also support the
financial statement audits of certain other Federal agencies.

BPD Controls over the Processing of Transactions for Other Agencies

An IPA, under our supervision, examined the general computer and accounting controls
related to certain services provided by BPD’s Administrative Resource Center to various
Federal agencies (Customer Agencies). The IPA found that (1) BPD’s description of
controls for these activities fairly presented, in all material respects, the controls that had
been placed in operation as of June 30, 2005; (2) the controls were suitably designed; and
(3) the controls tested by the IPA were effective during the period July 1, 2004, to
June 30, 2005. The IPA noted no instances of reportable non-compliance with laws and
regulations tested. (OIG-05-044)

An IPA, under our supervision, performed examinations that covered the general computer
and trust fund management processing controls related to BPD’s transactions processing
of investment accounts of various Federal and State government agencies (Program
Entities) and the general computer and investment/redemption processing controls related
to the BPD’s transactions processing of investment accounts for various Federal
Government agencies (Fund Agencies). The IPA found that (1) BPD’s description of these
controls fairly presented, in all material respects, the controls that had been placed in
operation as of July 31, 2005; (2) the controls were suitably designed; and (3) the controls
tested by the IPA were effective during the period August 1, 2004, to July 31, 2005. The
IPA noted no instances of reportable non-compliance with the laws and regulations tested.
(OIG-05-046 and OIG-05-047)




            Treasury Office of Inspector General Semiannual Report – September 2005           7
                    S IGNIFICANT A UDITS AND E VALUATIONS

INFORMATION TECHNOLOGY

Fiscal Year 2005 Independent Evaluation of Information Security for Treasury’s
National Security Systems

As required by the Federal Information Security Management Act of 2002, we evaluated
Treasury’s information security program and practices as they relate to the Department’s
national security systems. Our classified report on this evaluation noted several
weaknesses that warranted management’s attention. (OIG-CA-05-001 Classified)

Effective Security Controls Needed to Mitigate Critical Vulnerabilities in
Departmental Offices’ Networked Information Systems

Several high-risk security vulnerabilities
detected by specialized software may            … we found that password security measures need
expose DO’s network and systems to              improvement, logical access controls should be
unauthorized access and exploitation.           strengthened, audit trails are not optimally
Many of the vulnerabilities detected in         retained or secured, and systems and software are
DO’s systems also appear on the System          not sufficiently patched.
Administration, Networking and Security
Institute/Federal Bureau of Investigation List of the Twenty Most Critical Internet Security
Vulnerabilities. The majority of successful attacks on network and systems can be traced
to the exploitation of these vulnerabilities. In addition, we discovered that a number of
DO’s system configurations did not meet minimum requirements set forth by Treasury
Directive Publication 85-01, Treasury Information Technology Security Program. In
general, we found that password security measures need improvement, logical access
controls should be strengthened, audit trails are not optimally retained or secured, and
systems and software are not sufficiently patched. We recommended that the Chief
Information Officer (CIO) take the necessary steps, including correction of security
measures in DO’s systems and application of the latest service packs and security updates,
to mitigate the vulnerabilities detected. The CIO has implemented or planned corrective
actions that are responsive to our recommendations. Due to the sensitive nature of the
vulnerabilities detected, the report was issued as LOU. (OIG-05-043)

The Treasury Communications System’s Disaster Recovery Capability Has
Improved

                                         In a follow-up audit, we found that the
    Despite the improvements, we identified
                                         Department took action to remedy a material
    some weaknesses during this exercise that
                                         weakness related to disaster recovery
    still need attention including: (1) the lack of
                                         capability of the Treasury Communications
    participation in the disaster recovery exercise
                                         System (TCS) by establishing bureau
    by all Treasury components …         connection to its backup facility. Management
                                         also performed a disaster recovery exercise in
June 2004 to test the connections which we observed. During the exercise, we observed


8               Treasury Office of Inspector General Semiannual Report – September 2005
                S IGNIFICANT A UDITS AND E VALUATIONS

that TCS service from its primary site was successfully restored at its backup site. TCS
was also successful in restoring the backup operations to normal processing at the primary
site. Despite the improvements, we identified weaknesses during this exercise that still
need attention including: (1) the lack of participation in the disaster recovery exercise by all
Treasury components, (2) a component processing prioritization scheme was not
established at the backup site, and (3) a connection to the backup site was not established
for TEOAF. Our recommendations included: (1) conducting a disaster recovery exercise
during a peak utilization period, (2) establishing a prioritization plan; (3) ensuring bureaus
identify critical systems and recovery needs, and (4) establishing policies identifying and
managing system overloads. Management agreed with our recommendations and is in the
process of developing or implementing procedures to address our recommendations.
(OIG-05-038)

Subsequently, we performed a follow-up audit that included the observation of TCS’
August 2005 disaster recovery exercise. Although all Treasury components participated,
the exercise was unsuccessful due to Treasury’s inability to sustain the processing of TCS
services at the backup facility. We issued a follow up audit report in October 2005 and
will include our detailed findings and recommendations in our March 2006 Semiannual
Report. (OIG-06-001)

Treasury’s Computer Security Incident Response Capability Needs Improvement

In support of the OIG’s mandated reporting responsibility for the Federal Information
Security Reform Act of 2002, we reviewed the computer security incident response
capability (CSIRC) at the Mint, BEP, and FMS. For all bureaus reviewed, we determined
whether they established an adequate computer security incident response capability.
Weaknesses noted were as follows:

•   At the Mint, we found that current CSIRC policy and procedures need to be updated,
    security incidents were not completely reported, and necessary documentation for
    Mint’s patch management system was not retained. We recommended that Mint:
    (1) revise its policy and procedures and incorporate Treasury guidance; (2) create Help
    Desk procedures that clearly define incident-related communication requirements;
    (3) collect complete computer security incident data from external and internal sources
    and report them to the Treasury Computer Security Incident Response Center (TCSIRC)
    on a monthly basis; (4) update software patch management policy and procedures to
    conform with Treasury guidance; (5) retain appropriate configuration change request
    and testing documentation for software patches; (6) apply appropriate security bulletin
    patches and retain written justification for those that are not applied, and (7) include all
    configuration change requests in the patch tracking system. The Mint substantially
    agreed with our recommendations and is in the process of instituting corrective
    measures to address most of the recommendations. However, the Mint requested that
    the Department grant an exemption from certain Treasury requirements concerning
    reporting quarantined files due to resource considerations. We believe that the Mint
    should implement the related recommendation as stated. (OIG-05-040)



            Treasury Office of Inspector General Semiannual Report – September 2005            9
                 S IGNIFICANT A UDITS AND E VALUATIONS

•    At BEP, we found that although a CSIRC and a patch management function had been
     established, its computer security incident reporting process needed improvement.
     Specifically, we noted that CSIRC and related training were based on outdated Treasury
     guidance, CSIRC procedures did not incorporate all required aspects of Treasury
     guidance, an intrusion detection system had not been established, and incidents needed
     to be timely reported to the TCSIRC. BEP agreed with our findings and has
     implemented corrective actions that are responsive to our recommendations.
     (OIG-05-039)

•    At FMS, we also found that a CSIRC and patch management function had been
     established, but its computer security incident reporting process could be improved.
     Specifically, we noted that: CSIRC policy and procedures, help desk computer security
     incident reporting, potential incident investigations, and software patch management
     procedures were not always complete. Additionally, a monthly virus scan was not
     performed for April 2004. We recommended that FMS: (1) revise its CSIRC policy and
     procedures; (2) report all significant incidents to the Treasury Computer Security
     Incident Response Center; (3) ensure that Help Desk tickets are complete; (4) perform
     virus scans on a monthly basis; (5) ensure that investigations of potential incidents are
     complete; and (6) revise its software patch management procedures. FMS agreed with
     our recommendations and its corrective actions were responsive to the intent of our
     recommendations. (OIG-05-041)



PROGRAMS AND OPERATIONS

A major focus of our self-initiated audit work continues to be the high-risk area of the
Department’s administration of the Bank Secrecy Act (BSA) and other programs to detect
and deter terrorist financing and financial crimes. During fiscal year 2005, we completed
five audits of FinCEN or TFI, and had a number of audits in progress at the end of this
period. During this semiannual period, we completed an audit of FinCEN’s registration
program for the money services business industry. We also issued two Interim Audit
Reports on the Treasury Building and Annex Repair and Restoration (TBARR) program. Our
continuing audit oversight of the TBARR program is pursuant to a Congressional mandate.

FinCEN Faced Major Challenges in its Program to Register Money Services
Businesses

The Money Laundering Suppression Act of 1994             We found that FinCEN faces major
requires certain money services businesses (MSBs)        challenges to better ensure that MSBs
to register with the Secretary of the Treasury. At       comply with the registration mandate.
the time of the law’s enactment, it was generally        Furthermore, we identified indicators
believed that a national registration list would         that many MSBs required to register
enhance federal oversight of the MSB industry’s          have not done so.
compliance with the BSA. FinCEN has primary
responsibility for administering Treasury’s MSB registration program. FinCEN issued the


10           Treasury Office of Inspector General Semiannual Report – September 2005
               S IGNIFICANT A UDITS AND E VALUATIONS

implementing regulations, and directs the BSA compliance examination process and
supervisory enforcement efforts through delegated authority to the IRS.

FinCEN regulation, 31 C.F.R. 103.11(uu), broadly defines MSBs to include five distinct
types of financial services providers and the U.S. Postal Service: (1) currency dealers or
exchangers; (2) check cashers; (3) issuers of traveler’s checks, money orders, or stored
value cards; (4) sellers or redeemers of traveler’s checks, money orders, or stored value
cards; and (5) money transmitters. Unlike commercial banks and thrifts, MSBs do not offer
federally insured accounts such as savings or checking accounts. FinCEN’s final rule
implementing the 1994 law became effective in September 1999, and existing MSBs were
required to register on or before December 31, 2001 (new businesses, which are
established after that date and subject to the requirement, must register within 6 months).
Excluded from the registration requirement are agents of MSBs, unless engaged in money
services apart from their capacities as agents; businesses that conduct transactions under
a dollar threshold; and issuers, sellers, or redeemers of stored value cards. As of January
2005, the number of registered MSBs reported on a FinCEN website (www.msb.gov) was
approximately 22,000. We conducted an audit of the MSB registration program to
determine whether FinCEN had adequate management systems and controls to ensure
industry compliance with the statutory registration requirement.

We found that FinCEN faces major challenges to better ensure that MSBs comply with the
registration mandate. Furthermore, we identified indicators that many MSBs required to
register have not done so. We also found that the IRS may not have sufficient resources
to conduct timely MSB BSA examinations and, as of our audit period, there have been no
enforcement actions taken against MSBs. We noted other areas where FinCEN could
improve the registration program. These areas relate to (1) measuring how registration is
improving BSA compliance, (2) guidance on the dollar threshold for meeting the definition
of MSB, and (3) the reliability of the publicly available MSB registration list.

As detailed in our report, FinCEN had taken or planned a number of actions to improve the
registration program. As a recent and significant action, FinCEN and the federal banking
agencies jointly issued interpretative guidance in April 2005 to clarify the requirements for,
and to assist, banking organizations in appropriately assessing and minimizing risks posed
by providing banking services to MSBs. Among other things, the guidance advises banking
organizations that it is reasonable and appropriate to insist that MSB customers provide
evidence of registration or demonstrate that they are not subject to the registration
requirements. FinCEN also established an Office of Compliance in 2004 and recently
entered into information sharing agreements with the IRS and many states. As further
actions, we recommended that FinCEN (1) develop and track performance indicators that
measure how registration is enhancing BSA compliance by the MSB industry, including
registration; (2) develop and implement a strategy to take enforcement actions when
appropriate, including working with the IRS and the states to ensure timely and quality
referrals of unregistered MSBs are made; and (3) assess the need to clarify guidance on the
dollar threshold for designation as an MSB.




           Treasury Office of Inspector General Semiannual Report – September 2005         11
                 S IGNIFICANT A UDITS AND E VALUATIONS

FinCEN management concurred with our recommendations. Management also commented
that the importance of an effective federal registration system is underscored by recent
challenges faced by the MSB industry in securing appropriate access to banking services.
(OIG-05-050)

TBARR Interim Audit Reports

After a June 1996 roof fire resulted in major damage to the Main Treasury building,
Treasury decided to modernize the building. The TBARR program was established in
August 1998 for the stated purpose to (1) repair and restore the Main Treasury building to
correct the damage caused by the roof fire; (2) restore the historic fabric of the building;
and (3) modernize the building and its systems to comply with current codes and
standards. Starting with emergency funding received in fiscal year 1996 for the fire
damage, Treasury has received funding each year in accordance with no-year and multi-
year spending plans. Through fiscal year 2005, Congress appropriated a total of $237
million for the TBARR project. The Conference Report (H.R. 108-401) for the
Consolidated Appropriations Act, 2004, directed our office to comprehensively audit all
TBARR Program contracts since fiscal year 1998. During fiscal year 2004, we issued
Interim Audit Reports on TBARR (1) project planning and (2) contract award and
administration. Interim Audit Reports issued during this semiannual period are
summarized below.

•    Compliance with Building Code The Conference Report (H.R. 108-792) and related
     House Report (H.R. 108-671) to the Consolidated Appropriations Act, 2005, directed
     that our audit of the TBARR project include the inspection of the Main Treasury building
     to determine whether the renovation work conformed to applicable building codes. To
     address the mandate, we contracted with CMDR Associates, Inc. (CMDR), an
     engineering and construction consultant.

     CMDR noted that the TBARR project renovation contractors have exerted extraordinary
     effort in bringing this project to its current stage. However, CMDR found building code
     violations and other deficiencies in the following areas: (1) accessibility, (2) life safety,
     (3) structural, (4) environmental, (5) vertical conveyance (elevators), (6) mechanical,
     (7) fire protection, (8) electrical, and (9) fire alarm. CMDR did not report any building
     code violations or deficiencies with the telecommunications/data systems and security.
     Treasury generally agreed with the findings and recommendations to remedy or
     mitigate these conditions. (OIG-05-042)

•    Employee Moves During Renovation As reported previously, we had found that
     ineffective management of employee moves to and from “swing space” during
     construction resulted in delays and unnecessary costs (OIG-04-039). The Conference
     Report for the Consolidated Appropriations Act, 2005, directed us to identify the costs
     associated with delays in planned employee moves into alternative space during
     restoration phases.




12           Treasury Office of Inspector General Semiannual Report – September 2005
               S IGNIFICANT A UDITS AND E VALUATIONS

   To accomplish this task, we examined
                                                ... due to the incomplete and inconsistent
   additional records, including move
                                                methodologies of maintaining documentation
   records and modifications to the prime
                                                for the project, we were unable to determine the
   renovation contract, and we interviewed total costs associated with the move delays.
   appropriate Treasury, TBARR, and
   contracting personnel. However, due to the incomplete and inconsistent methodologies
   of maintaining documentation for the project, we were unable to determine the total
   costs associated with the move delays. We were able to identify 3 prime renovation
   contract modifications totaling $0.98 million that were issued because of government
   delays with 2 of the modifications, totaling $0.73 million, indicating the delays were
   related to employee relocation issues. Management agreed with our recommendations
   to implement procedures to improve the management and records for its move
   activities during the remainder of the TBARR project and future renovation work of the
   Treasury Annex building, if funded. (OIG-05-035)

We are continuing our audit oversight of the TBARR program. Current work includes an
assessment of contract and other costs charged to the TBARR appropriations accounts,
and we plan to follow up on the findings in our previous Interim Audit Reports.




           Treasury Office of Inspector General Semiannual Report – September 2005           13
                          S IGNIFICANT I NVESTIGATIONS

Undue Political Influence

At the request of the former Chairman of the Senate Subcommittee on Financial
Management, the Budget and International Security, the Treasury OIG conducted an
investigation into the circumstances surrounding the handling by the ATSB of the United
Airlines (UAL) $1.6 billion guaranteed loan application.

We found that a former Treasury Under Secretary, a voting representative on the ATSB,
was not subjected to any political pressure or intimidation to vote in favor of UAL $1.6
billion guaranteed loan application and, in fact, he voted to deny the application. Our
investigation also found no evidence or information indicating the former Treasury Under
Secretary was asked to resign from the ATSB by the Secretary of the Treasury in an effort
to replace him with someone more likely to vote in favor of UAL. Furthermore, although it
was established that various senior Treasury officials met with UAL officials for 2 days
prior to the June 17, 2004 vote, no evidence of gifts and gratuities was uncovered and the
meeting did not violate laws, regulations, and/or standards of ethical conduct.

Fraudulent Predatory Lending Practices

 Coley’s name was also listed on a purported  The Treasury OIG, in conjunction with the
 private direct Treasury account with the     Department of Housing and Urban
 Secretary of Treasury being listed as the    Development OIG, conducted an investigation
 trustee.                                     regarding fraudulent predatory lending
                                              practices through the use of fraudulent
financial instruments purporting to be a “Bill of Exchange.” The investigation disclosed
that Gary Coley had used the fraudulent instruments to purchase approximately $2.4
million in real estate from low income families. On November 17, 2004, he was indicted
by the U.S. Attorney’s Office, District of Maryland, on 13 counts of violating 18 USC 541,
Fictitious Government Financial Instrument, worth approximately $1.6 million. Coley’s
name was also listed on a purported private direct Treasury account with the Secretary of
the Treasury being listed as the trustee. On June 24, 2005, Coley was found guilty on all
13 counts. On September 16, 2005, Coley was sentenced to 15 months confinement in a
Federal prison facility, 36 months of supervised probation, and ordered to pay a special
assessment of $1,300.

BEP Employees Misused Government Computers

An OIG investigation determined that while on
duty, 12 employees within one section of BEP,            ... while on duty, 12 employees within
viewed, sent, and/or saved sexually explicit or          one section of BEP, viewed, sent, and/or
inappropriate images on government computers.            saved sexually explicit or inappropriate
It was also determined that managers within the          images on government computers.
section knew of and participated in the activity
and initially withheld this information from investigators. BEP’s Labor Management
Relations Division has initially recommended various penalties for employees ranging from
1 to 14 days suspension without pay and formal counseling.


14          Treasury Office of Inspector General Semiannual Report – September 2005
                          S IGNIFICANT I NVESTIGATIONS


Senior Executive Absent Without Leave

                                    An OIG investigation determined that a DO senior
... a DO senior executive was absentexecutive was absent without leave for approximately
without leave for approximately 32  32 days, from April 9, 2001, to February 5, 2005.
days ...                            This abuse of leave was valued at $19,290. The senior
                                    executive resigned from Treasury shortly after the
investigation began, and declined to be interviewed. This matter was referred to the
Department of Justice, Public Integrity Section, which declined prosecution of the matter
in favor of administrative remedies. A Report of Investigation has been forwarded to DO
for consideration of recoupment of the loss from the executive’s leave balance, which has
been frozen pending administrative resolution.

PricewaterhouseCoopers LLP. (PwC) Pays U.S. $41.9 Million To Settle False Claim
Allegations

In an investigation headed by the Department of Justice Civil Division and U.S. Attorney’s
Office in Los Angeles, various agencies including the Treasury OIG assisted in investigating
allegations that PwC submitted false claims to the Government relating to travel
reimbursements. In July 2005, PwC agreed to a financial settlement of $41.9 million with
the Department of Justice Civil Division. The settlement share for the Treasury is
estimated at $566,862.

Improper Possession of a BEP Engraving

In April 2005, the BEP advised the
Treasury OIG of the discovery of an           ... the BEP advised the Treasury OIG of the
engraved Vignette of the U.S.S. San           discovery of an engraved Vignette of the U.S.S.
Diego being auctioned on eBay. BEP            San Diego being auctioned on eBay. BEP believed
believed the Vignette was property of         the Vignette was property of BEP …
BEP based on information provided on the
eBay site. In this regard, BEP researched the history of the serial numbers and discovered
it was created by the BEP in 1915 and loaned out for display during the Panama –
California Exposition of 1915. It was learned the Vignette was never returned to BEP upon
the conclusion of the Exposition.

OIG Special Agents, assisted by investigators from the BEP, obtained documentation from
the BEP historical archives proving the Vignette was created by the BEP and was the
property of the U.S. Government. The facts of the case were presented to the U.S.
Attorney’s Office in the Eastern District of Virginia. Based on the findings, an “Ex Parte
Application for a Preliminary Injunction” and a seizure order enjoining an auction company
from selling or disposing of the Vignette and ordering its surrender to the U.S. Department
of Treasury were obtained.




             Treasury Office of Inspector General Semiannual Report – September 2005      15
                        S IGNIFICANT I NVESTIGATIONS

The Injunction and Order were served on the auction company and the Vignette was
seized. A hearing was held in Federal Court, Eastern District of Virginia, regarding the
ownership of the Vignette. The court found the Vignette to be property of the U.S.
Government and ordered it returned to the BEP for final retention. Following the court
ruling, the Vignette was returned to the BEP where it will be placed on display in its library.
The BEP estimated the current replacement value of the Vignette to be $15,600.

Chargeback to Mint Credit Card

In June 2005, the OIG received information from the Mint that an individual in
Westminster, Maryland, received a chargeback to his credit card when he alleged that 12
boxes containing approximately $10,000 worth of U.S. Mint products delivered to his
residence were ordered via fraudulent means. The individual, however, would not return
the products to the Mint. In July 2005, the OIG, with the assistance of the Maryland
State Police, went to his residence and recovered the Mint products. The investigation
continues into the purchase of these items from the Mint.

Misuse of Voyager Fleet Credit Card

The Treasury OIG, in conjunction with the General Services Administration OIG, conducted
an investigation into an individual misusing a Voyager fleet credit card assigned to FMS. In
February 2005, the individual was arrested, pursuant to an arrest warrant issued by the
Superior Court of the District of Columbia, for violation of 22 DC Code 3811-Theft. On
April 1, 2005, the subject admitted guilt and was sentenced to 40 hours community
service and restitution of $684, under the pre-trial diversion program.

U.S. Mint Police Officer Violated the Standards of Ethical Conduct

An OIG investigation revealed that a U.S. Mint Police Officer violated the Standards of
Ethical Conduct for employees of the Executive Branch, as well as U.S. Mint Police
standard operating procedures when he drew his Mint-issued, duty firearm and pointed it
at a dog belonging to his ex-wife’s neighbor. The OIG has submitted a Report of
Investigation to the Mint for consideration of appropriate administrative action.



The following are updated cases of investigative activities from previous
Semiannual Reports.

Employee Pleads Guilty to Theft of Currency from BEP

As previously reported, the Treasury OIG was notified by BEP Police of a possible theft of
currency from the Western Currency Facility (WCF) in Fort Worth, TX. A joint
investigation with the U.S. Secret Service identified a BEP employee, Donald Stokes, who
was alleged to have removed at least $5,000 of $50 Federal Reserve Notes slated for



16         Treasury Office of Inspector General Semiannual Report – September 2005
                        S IGNIFICANT I NVESTIGATIONS

destruction. Further investigation disclosed that Stokes had been stealing currency, in the
form of uncut notes, from BEP since 1998.

On July 13, 2005, Stokes pled guilty to one count of interstate transportation of stolen
property for the $30,000 of currency that he admitted to stealing from the WCF. Stokes
is awaiting sentencing in October 2005, and faces a maximum statutory sentence of 10
years imprisonment, a $250,000 fine, and restitution.

South Carolina Man Sentenced and Ordered to Pay Restitution for Forgery of FMS-
Issued Treasury Checks

We previously reported on a joint investigation with the Social Security Administration
(SSA) OIG which resulted in the indictment of a Columbia, South Carolina man, Jackie
Ballard, who had been forging and cashing his deceased mother’s widow benefits checks
from 1989 until 2001. Ballard failed to notify the SSA of his mother’s death, and after
multiple failed attempts to validate his mother’s health, the SSA discontinued the benefits
payments.

On April 4, 2005, Ballard pled guilty to one count of forging endorsements on Treasury
checks (18 USC 510) and was sentenced to 5 years probation and ordered to pay
restitution of $66,799.

Former FMS Employee and Spouse Debarred by Treasury

As previously reported, a former FMS employee, Veronica Hardy-Everette and her spouse,
Charles Daniel Everette, were indicted and arrested for their involvement in an ongoing
scheme to defraud the government. From January 1999 to December 2000, Hardy-
Everette participated in awarding more than 100 government training agreements to two
software training businesses operated by herself and her spouse. Payments totaling more
than $139,000 were made to the two businesses, Computer Image and C & D Training
Consultants. Both were sentenced in United States District Court for the District of
Maryland to 12 months imprisonment, 3 years probation, and were ordered to pay
restitution in the amount of $54,500 to FMS.

Effective September 1, 2005, a 3-year debarment was imposed on Veronica Hardy-
Everette and her spouse Charles Everette, by the Department of the Treasury and the
Office of the Procurement Executive.

Roanoke, VA Postal Carrier Convicted for Stolen Treasury Checks

As previously reported, Treasury OIG
                                          The investigation disclosed that while McKenna was
and U.S. Postal Inspection Service
                                          performing his official duties, he stole several
Special Agents, recovered two stolen
                                          hundred pieces of U.S. Mail and concealed it at his
U.S. Treasury Checks valued at $1,564
                                          residence.
from the residence of a U.S. Postal
Carrier, John McKenna, following the execution of Federal search warrant in December

            Treasury Office of Inspector General Semiannual Report – September 2005         17
                       S IGNIFICANT I NVESTIGATIONS

2004. McKenna was also arrested pursuant to a federal arrest warrant on the same day
and charged with mail theft (U.S. Treasury Check) by a Postal Employee (18 USC 1709).
The investigation disclosed that while McKenna was performing his official duties, he stole
several hundred pieces of U.S. Mail and concealed them at his residence.

On March 30, 2005, McKenna pled guilty to one count of theft (18 USC 1709), and was
sentenced on June 10, 2005, to 5 months incarceration, 5 months of home confinement,
and 2 years supervised release and a $100 Special assessment.

DC Resident Plead Guilty to Second Degree Burglary

As reported in the previous period, a
District of Columbia resident,             … the subject was responsible for multiple thefts
Ameenah Franks, was arrested as a          from other government facilities and commercial
result of an OIG investigation into        buildings throughout the DC metropolitan area …
thefts from Treasury and other
tenants at an office building in Washington, DC, in September 2004. The investigation
also revealed that the subject was responsible for multiple thefts from other government
facilities and commercial buildings throughout the DC metropolitan area, including a theft
from a Federal office building in Montgomery County, Maryland. During March 2005, as
part of a plea agreement entered into with the U. S. Attorney’s Office, Franks provided
descriptions of more than 25 additional thefts and/or burglaries that she was responsible
for in Washington, DC. On May 6, 2005, Franks pleaded guilty to Second Degree Burglary
related to the Treasury burglary. Sentencing was originally scheduled for July 21, 2005,
however, following a subsequent arrest in an unrelated matter, sentencing was continued
and is now scheduled for October 2005.




18         Treasury Office of Inspector General Semiannual Report – September 2005
         O THER OIG A CCOMPLISHMENTS AND A CTIVITIES

Office of Investigations Continues Participation in Multi-Jurisdictional Task Force to
Combat Fraud

As reported in our last Semiannual Report, the Treasury OIG Office of Investigations along
with other federal, state, and local law enforcement agencies joined together with the U.S.
Attorney for the Eastern District of Virginia and the Attorney General for the
Commonwealth of Virginia to form the Metro Richmond Fraud and Identity Theft Task
Force in November 2004. The task force coordinates and integrates the ongoing efforts of
the various agencies and task forces throughout the U.S. to fight the growing problem of
fraud and identity crimes. By functioning as a repository of expertise and intelligence, the
task force will improve the speed, quality, and effectiveness of law enforcement’s
response to these types of cases.

Update The work of the task force over the past year has resulted in 26 federal arrests,
71 state arrests, 17 searches, resulting in the recovery of approximately $827,750 and the
seizure of $29,000. Additionally, task force members provided 29 Fraud
Awareness/Identity theft briefings to various government and civic groups as part of its
outreach and education mission.

Over the course of the past year, the task force has established a telephone Hot Line and
website in order further to assist and educate the public in dealing with the complexity of
financial frauds and identity theft crimes. Within the website, there is a comprehensive
section dealing with the most common scams and a listing of agencies and organizations
that can provide additional information along with downloadable forms that can be used to
report such crimes.

The Metro-Richmond Fraud and Identity Theft Task Force may be contacted by visiting the
website at www.fraudandidentitythefttaskforce.com or by calling the Hotline at
(804) 418-6121.

Treasury/Labor Joint Continuing Professional Education Conference

Federal government auditing standards require that our auditors maintain their technical
abilities by completing at least 80 hours of continuing professional education every
2 years. During August 2005, Treasury OIG participated in a joint continuing professional
education conference with the Department of Labor OIG, a first for the IG Community.
This conference provided the opportunity for the OIG staff to enhance their professional
expertise by further developing their skills in auditing, supervision, and management in a
cost effective manner. The training program developed for the conference included
instructors and presenters from the U.S. Departments of Education and Transportation, the
Inspector General Auditor Training Institute, USDA Graduate School, and commercial
vendors.




           Treasury Office of Inspector General Semiannual Report – September 2005       19
          O THER OIG A CCOMPLISHMENTS AND A CTIVITIES

IGATI Curriculum Review Board

The Inspectors General Auditor Training Institute (IGATI) was created by the President’s
Council on Integrity and Efficiency (PCIE) in December 1990. IGATI provides training to
enhance the skills, abilities, and knowledge of auditors in the Federal OIG community. As
previously reported, an IGATI Curriculum Review Board was formed under the leadership of
Assistant Inspector General for Audit Marla Freedman to assist the PCIE Audit Committee
in achieving its strategic goal to identify and provide useful, relevant, and cost-effective
auditor training. The Board established a methodology for reviewing each IGATI course
offering. That methodology involves a course materials review, classroom observations,
and interviews with former students and supervisors. As of September 30, 2005, the
Board had substantially completed its review of about a fourth of IGATI’s course offerings.
A report on one course review was issued in final to the Chair of the Audit Committee;
reports are being drafted for the other courses reviewed during fiscal year 2005.

In addition to Treasury OIG, the Board currently consists of representatives from the Naval
Audit Service and the Offices of Inspector General at the Agency for International
Development, Department of Defense, Department of Education, Department of Energy,
Environmental Protection Agency, General Services Administration, Department of Housing
and Urban Development, Department of the Interior, and Social Security Administration.

OIG Participates in IG E-Learning Initiative

During the reporting period, the PCIE and Executive Council on Integrity and Efficiency
(ECIE) began to pilot a new learning initiative, IG E-Learning (IGEL), in partnership with
SkillSoft. IGEL is the IG community’s first venture into E-Learning. It represents the
community’s desire to leverage available technology at a time when government
organizations are trying to operate more efficiently and cost-effectively. An IGEL Steering
Committee, of which the Treasury OIG is a member, established a core curriculum of
SkillSoft courses for each IG discipline (audit, investigation, human resources, and
administration). The Steering Committee is also capturing usage statistics and evaluating
the pilot results on an ongoing basis. At the completion of the pilot in April 2006, the IG
community will assess the overall success of the pilot and consider the future of IGEL.

PCIE Awards for Excellence

At the annual joint PCIE and ECIE awards ceremony on October 26, 2005, Treasury
received five Awards for Excellence in recognition of their work on certain audits and
investigations completed during fiscal year 2005.

The achievements recognized were as follows:

•    The audit of the Treasury Building and Annex Repair and Restoration Program
     performed at the direction of the Congress.
•    Developing and implementing a vulnerability scan based audit approach to identify and
     prioritize information security weaknesses and to contribute to the improvement of the
     agency cyber security program.
20          Treasury Office of Inspector General Semiannual Report – September 2005
         O THER OIG A CCOMPLISHMENTS AND A CTIVITIES

•   The innovative approaches used and significant results achieved on an audit of the
    Treasury’s secure network to file Bank Secrecy Act reports.
•   The follow-up audit performed of longstanding data quality problems with suspicious
    activity reporting by institutions subject to the Bank Secrecy Act.
•   The investigation of an individual whose fraudulent $1.6 million multi-national bank “Bill
    of Exchange” scheme was thwarted.




            Treasury Office of Inspector General Semiannual Report – September 2005        21
                               S TATISTICAL S UMMARY

Summary of OIG Activity
For the 12 Months Ended September 30, 2005 (Dollars in Thousands)


                                            10/1/2004 –        4/1/2005 –
              OIG Activity                   3/31/2005         9/30/2005
                                                                                 Period Totals
                                Office of General Counsel Activity
     Regulation and Legislation                        43                   7                 50
     Reviews
     Instances Where Information was                   1*                   0               N/A
     Refused
                                        Office of Audit Activities
     Reports Issued (Audits and                        36                   18                54
     Evaluations)
     Disputed Audit Recommendations                       0                 0                    0
     Significant Revised Management                       0                 0                    0
     Decisions
     Management Decision in Which                         0                 0                    0
     the IG Disagrees
     Monetary Benefits (Audit)
     a) Questioned Costs                             $975            $2,843             $3,818
     b) Funds Put to Better Use                   $48,000                $0            $48,000
     c) Revenue Enhancements                           $0                $0                 $0
     Total Monetary Benefits                      $48,975            $2,843            $51,818
                                 Office of Investigations Activities
     Reports of Investigation                              5                14                19
     Preliminary Inquiry Closing                          17                18                35
     Memorandums
     Number of OIG Hotline Calls                      517               279                 796
     Processed
     Allegations – Total Number                       212               182                 394
     Processed
     Referrals Made During the Period                 111               101                 212
     Cases Open at Start of Period                    113               150                 N/A
     Cases Opened in the Reporting                     46                40                  86
     Period
     Cases Closed in the Reporting                        9                  7                16
     Period
     Cases Open at the End of the                     150               183                 N/A
     Period

      *The instance is related to a jurisdictional issue at OCC that is not currently in contention.




22          Treasury Office of Inspector General Semiannual Report – September 2005
                              S TATISTICAL S UMMARY

                                      10/1/2004 –        4/1/2005 –
            OIG Activity               3/31/2005         9/30/2005
                                                                           Period Totals
Inquiries   Open at Start of Period                 30                59              N/A
Inquiries   Opened in the Reporting                 50                43               93
Period
Inquiries   Closed in the Reporting                 21                26               47
Period
Inquiries   Open at the End of the                  59                76              N/A
Period
Judicial Actions
Cases Referred for Prosecution                  68*                51                119
Cases Accepted for Prosecution                  32*                32                 64
Arrests                                          59                26                 85
Search Warrants                                  12                 9                 21
Indictments/Information                           8                20                 28
Pleas                                             7                 9                 16
Conviction by Trial                               0                 1                  1
Imprisonment (Months)                           169                26                195
Home Detention (Months)                           0                 0                  0
Probation (Months)                              300               204                504
Community Service (Hours)                         0              1040               1040
Administrative Sanctions
Adverse Personnel Actions                        13                17                 30
Contractor                                      1**               0**                1**
Suspensions/Debarments
Individual                                      1**               2**                3**
Suspensions/Debarments
Oversight Activities
Quality Assessment Reviews                           0                1                 1
Management Implication Reports                       1                0                 1
Fraud and Integrity Briefings                       12                7                19
Monetary Benefits
Fines                                            $7              $167                $174
Restitution                                  $5,019               $92              $5,111
Recoveries                                      $73              $116                $189
Settlements                                      $0              $569                $569
Savings/Cost Avoidance                           $0                $0                  $0
Actual Losses Identified                     $5,167              $744              $5,911
Potential Losses Identified                     $48               $33                 $81

  *14 referrals and 8 acceptances were inadvertently not tabulated during the last reporting
  period. Tabulations are now corrected.

  **As a change starting this period, we are reporting on this activity when affirmative
  administrative action is taken. Previously, we reported when we made referrals
  recommending debarment or suspension.




        Treasury Office of Inspector General Semiannual Report – September 2005                23
                              S TATISTICAL S UMMARY

Significant Unimplemented Recommendations
For Reports Issued Prior to September 30, 2005

 Number         Date   Report Title and Recommendation Summary

OIG-01-014     11/00 Final Report on the Review of Treasury Computer Security Plans
                     The Treasury CIO should: (1) correct system vulnerabilities identified in DO
                     systems, update DO system security plans, ensure through the certification
                     and accreditation process that system security plans are kept up-to-date and
                     that new system vulnerabilities are identified and addressed; and (2) develop
                     a means to identify all existing and newly developed DO systems.
                     (1 recommendation)


OIG-02-115     9/02    INFORMATION TECHNOLOGY: Treasury’s Planning, Management, and
                       Implementation of a Smart Card and Public Key Infrastructure (PKI) Needs
                       Improvement
                       The CIO should ensure that Treasury: (1) establishes a Treasury program to
                       effectively manage smart cards and PKI; (2) develops a program plan
                       defining roles and responsibilities, and milestones and resources needed for
                       smart card and PKI initiatives; (3) plans for adequate staffing of employees
                       to support smart card and PKI infrastructure as enterprise architecture;
                       (4) develops a strategy to consolidate and minimize the number of smart
                       card and PKI administrative systems (inventory management, personnel
                       management, administrative, travel, manpower, etc.); (5) uses another hard
                       token as an interim security measure along with smart cards to provide
                       strong two-factor authentication for digital certificates; and (6) establishes
                       appropriate record management controls for general, sensitive, and secret
                       information related to the Treasury smart card and PKI infrastructure.
                       (6 recommendations)


OIG-02-122     9/02    Community Development Financial Institution Fund Post Award
                       Administration Process
                       The CDFI Fund Director should initiate action to amend the OMB Circular A-
                       133 Compliance Supplement to reflect revised accountability requirements
                       for financial assistance funds. (1 recommendation)


OIG-03-007     10/02 INFORMATION TECHNOLOGY: Controls Over FinCEN's Law Enforcement
                     Data Need Improvement
                     The FinCEN Director should establish a formal process for approving,
                     transmitting, and maintaining system access authorization forms to reduce
                     the risks associated with granting excessive or unauthorized access
                     privileges, alterations, misunderstandings, and mishandled forms.
                     (1 recommendation)




24           Treasury Office of Inspector General Semiannual Report – September 2005
                              S TATISTICAL S UMMARY

OIG-03-034     12/02 FINANCIAL MANAGEMENT: Audited Financial Statements of the Treasury
                     Forfeiture Fund for Fiscal Years 2002 and 2001
                     TEOAF should: (1) develop and implement an allocation process for all direct
                     costs and common support costs not directly traceable to individual seizures.
                     Indirect costs will have to be applied to the individual seizures. Direct and
                     indirect costs will have to be added together to provide total costs per
                     seizure; and (2) vigorously pursue the enhancement of Seized Assets and
                     Case Tracking System (SEACATS) capabilities to record and report expenses
                     at the asset level. (2 recommendations)


OIG-03-038     12/02 PROTECTING THE PUBLIC: Treasury Departmental Offices' Control Over
                     Computers Needs To Be Improved
                     DO should re-evaluate the method for reporting lost or stolen computers to
                     ensure all losses are reported to the proper authorities. This should include
                     periodic reconciliations between the CIO, Treasury Office of Security and
                     Critical Infrastructure Protection, and the OIG Office of Investigations.
                     (1 recommendation)


OIG-03-093     8/03   INFORMATION TECHNOLOGY: Treasury’s Cyber-Based Critical
                      Infrastructure Protection Implementation Efforts Remain Inadequate
                      The Treasury CIO should finalize draft documents that are key elements of
                      the Treasury Critical Infrastructure Protection Plan and distribute them to DO
                      and the bureaus, ensuring that DO and the bureaus have the necessary
                      guidance to comply with Presidential Decision Directive 63 requirements.
                      (1 recommendation)


OIG-04-003     11/03 Audit of the Department of the Treasury’s Fiscal Years 2003 and 2002
                     Financial Statement
                     The Assistant Secretary for Management and CFO should: (1) provide
                     effective oversight to ensure that the specific recommendations detailed in a
                     previous OIG report, and the related plans for corrective actions, are
                     implemented completely and timely by the various bureaus; and (2) oversee
                     efforts to ensure effective financial management structures are established
                     at TTB and International Assistance Program. (2 recommendations)


OIG-04-007     11/03 Alcohol and Tobacco Tax and Trade Bureau’s Schedule of Custodial
                     Activities for Fiscal Year Ended September 30, 2003
                     TTB management should: (1) review the network services and open ports
                     and disable any that are unnecessary, and review and update current policies
                     and procedures to provide clear guidelines for approving which services will
                     run on servers attached to the network; and (2) complete an inventory of all
                     databases within the environment, and ensure that all default passwords
                     have been removed, user and developer access is appropriate, and database
                     server passwords abide by TTB password requirements. In addition, TTB
                     should develop policies and procedures to ensure the database server is
                     periodically scanned for weak or default passwords. (2 recommendations)


             Treasury Office of Inspector General Semiannual Report – September 2005             25
                              S TATISTICAL S UMMARY


OIG-04-016     12/03 Audit of The Department of the Treasury Forfeiture Fund’s Fiscal Years 2003
                     and 2002 Financial Statements
                     TEOAF should: (1) develop an allocation process for all common support
                     costs not directly traceable to individual seizures; and (2) vigorously pursue
                     the enhancement of SEACATS capabilities to record and report total
                     expenses at the asset level. (2 recommendations, repeated from
                     (OIG-03-034)


OIG-04-022     2/04   Management Letter for Fiscal Year 2003 Audit of the Department of the
                      Treasury Financial Statements
                      The Department should: (1) research and determine whether component
                      reporting entities reporting on a basis other than Federal Generally Accepted
                      Accounting Principles (GAAP) are required to do so by statute; that all
                      reporting entities within the Department prepare their financial statements in
                      accordance with Federal GAAP; and entities that are statutorily required to
                      report on a basis of accounting other than Federal GAAP provide
                      supplemental information in their annual reports that meets the reporting
                      requirements of Federal GAAP, to include a Management Discussion and
                      Analyses; and (2) implement analytical review procedures as an integral part
                      of interim financial reporting at the individual bureau level as well as the
                      Department level. The results of these analytical reviews should be
                      documented in a brief narrative accompanying the financial reports.
                      (2 recommendations)


OIG-04-035     6/04   GENERAL MANAGEMENT: Controls Over Security Need to be Improved at
                       the Bureau of Engraving and Printing
                      The Bureau of Engraving and Printing Director should complete plans for its
                      Integrated Security Systems and install its security upgrade systems
                      expeditiously. (1 recommendation)



This list of OIG audit reports with unimplemented recommendations is based on
information in Treasury’s automated audit recommendation tracking system, which is
maintained by Treasury management officials.



Summary of Instances Where Information Was Refused
April 1, 2005, through September 30, 2005

There were no such instances during this period.




26           Treasury Office of Inspector General Semiannual Report – September 2005
                           S TATISTICAL S UMMARY

Listing of Audit and Evaluation Reports Issued
April 1, 2005 through September 30, 2005

Financial Audits and Attestation Engagements

   Management Letter for Fiscal Year 2004 Audit of the Financial Management Service’s
   Schedules of Non-Entity Government-Wide Cash, OIG-05-036, 5/2/05

   Management Letter for Fiscal Year 2004 Audit of the Financial Management Service’s
   Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue, OIG-05-037,
   5/4/05

   Controls Placed in Operation and Tests of Operating Effectiveness for the Treasury
   Bureau of the Public Debt Administrative Resource Center for the Period July 1, 2004
   to June 30, 2005, OIG-05-044, 8/19/05

   The Federal Financing Bank’s Fiscal Years 2004 and 2003 Financial Statements, OIG-
   05-045, 8/26/05

   Controls Placed in Operation and Tests of Operating Effectiveness for the Bureau of the
   Public Debt’s Trust Fund Management Branch for the Period August 1, 2004, to July
   31, 2005, OIG-05-046, 9/12/05

   Controls Placed in Operation and Tests of Operating Effectiveness for the Bureau of the
   Public Debt’s Federal Investments Branch for the Period August 1, 2004 to July 31,
   2005, OIG-05-047, 9/12/05

Information Technology Audits and Evaluations

   INFORMATION TECHNOLOGY: The Treasury Communications System’s Disaster
   Recovery Capability Has Improved, OIG-05-038, 5/16/05

   INFORMATION TECHNOLOGY: BEP’s Computer Security Incident Response Capability
   Needs Improvement, OIG-05-039, 6/30/05

   INFORMATION TECHNOLOGY: Mint’s Computer Security Incident Response Capability
   Needs Improvement, OIG-05-040, 7/13/05

   INFORMATION TECHNOLOGY: FMS’s Computer Security Incident Response Capability
   Needs Improvement, OIG-05-041, 7/13/05

   INFORMATION TECHNOLOGY: Evaluation of Information Security Program and
   Practices for National Security Systems, OIG-CA-05-001, 7/29/05

   Effective Security Controls Needed to Mitigate Critical Vulnerabilities in Departmental
   Offices’ Networked Information Systems, OIG-05-43, 8/2/05 (LOU)


           Treasury Office of Inspector General Semiannual Report – September 2005           27
                                 S TATISTICAL S UMMARY

Performance Audits

     TBARR: Cost of Employee Move Delays During Main Treasury Building Renovation
     Could Not Be Determined, OIG-05-035, 4/1/05

     TBARR: While Progress Has Been Made On The Main Treasury Renovation, Code
     Violations and Other Deficiencies Need To Be Corrected, OIG-05-042, 7/29/05

     BANK SECRECY ACT: Major Challenges Faced by FinCEN In Its Program to Register
     Money Services Businesses, OIG-05-050, 9/27/05

Supervised Contract Audits

     CONTRACT AUDIT: Xerox Special Information Systems Fixed Price Proposal for
     Advanced Counterfeit Deterrent Flush, Reference – TEP-05-0003, OIG-05-048,
     9/14/05, $2,569,040 Q

     CONTRACT AUDIT: Xerox Special Information Systems Fixed Price Proposal for Quality
     Evaluation Detector Maintenance Services, Reference – TEP-05-0009, OIG-05-049,
     9/14/05, $212,650 Q

     CONTRACT AUDIT: Johns Hopkins University/Applied Physics Laboratory (JHU/APL)
     Proposal for Contract TEP-05-0017, V4405, OIG-05-051, 9/27/05, $61,483 Q



Audit Reports Issued with Questioned Costs
April 1, 2005, Through September 30, 2005 (Dollars in Thousands)

                                                                          Total
                        Category                      No. of       Questioned     Unsupported
                                                     Reports         Costs           Costs
     For which no management decision had been
     made by beginning of reporting period                     2          737        0

     Which were issued during the reporting period             3        2,843        0
     Subtotals                                                 5        3,580        0
     For which a management decision was made
     during the reporting period                               1          695        0

             dollar value of disallowed costs                  1          695        0
             dollar value of costs not disallowed              0             0       0
     For which no management decision had been
     made by the end of the reporting period                   4        2,885        0

         For which no management decision was
         made within 6 months of issuance                      1           42        0




28           Treasury Office of Inspector General Semiannual Report – September 2005
                                    S TATISTICAL S UMMARY

    All audits were performed by the Defense Contract Audit Agency under our supervision. A “Questioned Cost”
    denotes that one or more of the following three situations exist: (1) an alleged violation of a provision of a law,
    regulation, contract, grant, cooperative agreement, other agreement or document governing the expenditure of
    funds; (2) a finding that, at the time of the audit, such cost is not supported by adequate documentation; or
    (3) a finding that the expenditure of funds for the intended purpose is unnecessary or unreasonable.




Audit Reports Issued with Recommendations that
Funds be Put to Better Use
April 1, 2005, through September 30, 2005 (Dollars in Thousands)

At the beginning of the period, there were no audit reports from prior periods requiring a
management decision on recommendations that funds be put to better use. There were no
audit reports issued during this period with recommendations that funds be put to better
use.



Previously Issued Audit Reports Pending Management Decisions (Over Six Months)
As of September 30, 2005 (Dollars in Thousands)

There are no previously issued Audit Reports pending Management Decisions for this
reporting period.



Significant Revised Management Decisions
April 1, 2005, to September 30, 2005

There were no significant revised management decisions during the period.



Significant Disagreed Management Decisions
April 1, 2005, to September 30, 2005

There were no management decisions this period with which the Inspector General was in
disagreement.




             Treasury Office of Inspector General Semiannual Report – September 2005                                      29
                 REFERENCE TO THE INSPECTOR GENERAL ACT




        Reference                                      Requirement                             Page
     Section 4(a)(2)      Review of legislation and regulations                                  1
     Section 5(a)(1)      Significant problems, abuses, and deficiencies                       5-18
     Section 5(a)(2)      Recommendations with respect to significant problems, abuses, and    5-18
                          deficiencies
     Section 5(a)(3)      Significant unimplemented recommendations described in previous      24-26
                          semi-annual reports
     Section   5(a)(4)    Matters referred to prosecutive authorities                          22-23
     Section   5(a)(5)    Summary of instances where information was refused                    26
     Section   5(a)(6)    List of audit reports                                                27-28
     Section   5(a)(7)    Summary of significant reports                                       5-18
     Section   5(a)(8)    Audit Reports with questioned costs                                   28
     Section   5(a)(9)    Recommendations that funds be put to better use                       29
     Section   5(a)(10)   Summary of audit reports issued before the beginning of the
                                                                                                29
                          reporting period for which no management decision has been made
     Section 5(a)(11)     Significant revised management decisions made during the reporting    29
                          period
     Section 5(a)(12)     Management decisions with which the Inspector General is in           29
                          disagreement
     Section 5(a)(13)     Instances of unresolved FFMIA non-compliance                          6
     Section 5(d)         Serious or flagrant problems, abuses or deficiencies                 N/A
     Section 6(b)(2)      Report to Secretary when information or assistance is unreasonably   N/A
                          refused




30             Treasury Office of Inspector General Semiannual Report – September 2005
                                      A CRONYMS


ATSB                     Air Transportation Stabilization Board
BEP                      Bureau of Engraving and Printing
BPD                      Bureau of the Public Debt
BSA                      Bank Secrecy Act
CDFI Fund                Community Development Financial Institutions Fund
CFO                      Chief Financial Officer
CIO                      Chief Information Officer
CMDR                     CMDR Associates, Inc.
DC                       District of Columbia
CSIRC                    Computer Security Incident Response Capability
DO                       Departmental Offices
ECIE                     Executive Council on Integrity and Efficiency
ESF                      Exchange Stabilization Fund
FFB                      Federal Financing Bank
FFMIA                    Federal Financial Management Improvement Act of 1996
FFMSR                    Federal Financial Management Systems Requirements
FinCEN                   Financial Crimes Enforcement Network
FMS                      Financial Management Service
FTE                      Full-time Equivalent
GAAP                     Generally Accepted Accounting Principles
GMRA                     Government Management Reform Act of 1994
IG                       Inspector General
IGATI                    Inspectors General Auditor Training Institute
IPA                      Independent Public Accountant
IRS                      Internal Revenue Service
IRS-CI                   IRS Criminal Investigations
LOU                      Limited Official Use
Mint                     U.S. Mint
MSB                      Money Service Business
PwC                      PriceWaterhouse Coopers, LLP.
OA                       Office of Audit
OCC                      Office of the Comptroller of the Currency
OFAC                     Office of Foreign Assets Control
OI                       Office of Investigations
OIA                      Office of Intelligence and Analysis
OIG                      Office of Inspector General
OMB                      Office of Management and Budget
OTS                      Office of Thrift Supervision
PCIE                     President’s Council on Integrity and Efficiency
PKI                      Public Key Infrastructure
SEACATS                  Seized Assets and Case Tracking System
SSA                      Social Security Administration
TBARR                    Treasury Building and Annex Repair and Restoration
TCS                      Treasury Communications System
TCSIRC                   Treasury Computer Security Incident Response Center


            Treasury Office of Inspector General Semiannual Report – September 2005   31
                                     A CRONYMS

TEOAF                   Treasury Executive Office for Asset Forfeiture
TFF                     Treasury Forfeiture Fund
TFFC                    Office of Terrorist Financing and Financial Crime
TFI                     Office of Terrorism and Financial Intelligence
TIGTA                   Treasury Inspector General for Tax Administration
Treasury                Department of the Treasury
TTB                     Alcohol and Tobacco Tax and Trade Bureau
UAL                     United Airlines
USC                     United States Code
WCF                     Western Currency Facility, BEP




32         Treasury Office of Inspector General Semiannual Report – September 2005
The historic Treasury Collection represents one of the oldest and most intact
  collections of fine and decorative art in the Executive branch of the U.S.
 Government. Like its immediate neighbor, the White House, the Treasury
  Department has remained on the original Pennsylvania Avenue site since
1800 when the federal government permanently moved to Washington, D.C.
                        (Source: Office of the Curator)
 contact us

Headquarters
Office of Inspector General
1500 Pennsylvania Avenue, N.W.,
Room 4436
Washington, D.C. 20220
Phone: (202) 622-1090; Fax: (202) 622-2151

Office of Audit
740 15th Street, N.W., Suite 600
Washington, D.C. 20220
Phone: (202) 927-5400; Fax: (202) 927-5379

Office of Investigations
740 15th Street, N.W., Suite 500
Washington, D.C. 20220
Phone: (202) 927-5260; Fax: (202) 927-5421

Office of Counsel
740 15th Street, N.W., Suite 510
Washington, D.C. 20220
Phone: (202) 927-0650; Fax: (202) 927-5418

Office of Management
740 15th Street, N.W., Suite 510
Washington, D.C. 20220
Phone: (202) 927-5200; Fax: (202) 927-6492

Eastern Field Audit Office
408 Atlantic Avenue, Room 330
Boston, Massachusetts 02110-3350
Phone: (617) 223-8640; Fax (617) 223-8651




                                             Treasury OIG Hotline
                                             Call Toll Free: 1.800.359.3898

                                             Treasury OIG Web Page

                                             OIG reports and other information are now
                                             available via the Internet. The address is
                                             http://www.treas.gov/offices/inspector-general
